HHS/OIG, Audit - "Review of State Childrens Health Insurance Program
Eligibility in New York State," (A-02-06-01003)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of State Childrens Health Insurance Program Eligibility in New York State," (A-02-06-01003)
July 24, 2007
Complete
Text of Report is available in PDF format (2.01 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The New York State Department of Health (the State agency)
(1) made some State Childrens Health Insurance Program (SCHIP) payments on
behalf of beneficiaries who did not meet Federal and State eligibility
requirements and (2) did not always adequately document eligibility
determinations.  As a result, for the 6-month audit period, we estimated that
the State agency made SCHIP payments totaling between $17,682,343 and
$32,892,050 (Federal share) on behalf of ineligible beneficiaries.  In addition,
we estimated that case file documentation did not adequately support
eligibility determinations for SCHIP payments totaling between $9,529,453 and
$20,176,073 (Federal share).
We recommended that the State agency use the results of
this review to help ensure compliance with Federal and State
SCHIP eligibility requirements by (1) reemphasizing to beneficiaries the
need to provide accurate and timely information and (2) requiring employees of
managed care organizations to verify eligibility information and maintain
appropriate documentation in all case files.  We also recommended that the
State agency work with the Centers for Medicare & Medicaid Services to resolve
the estimated improper SCHIP payments of at
least $17,682,343 identified in the review.  The State agencys comments did not
directly address the recommendations.